O.-

20=-5365 ;

r

\

r-s

r-i

1

i •

i
V I. 1

V,

■#, .

»-M

, 1

IN THE SUPREME COURT OF THE UNITED STATES^":
(CIVIL DIVISION)

V-> teJl

' 'O

Jin 93-

‘ o

i

?

t.oe.j

IN RE OF Jaaqiulj'iH^pliitfai, Petitioner/Plaintiff

I
i

On Petition for a Writ of Mandamus against the Pennsylvania Supreme Court; Superior Court of
Pennsylvania; and the Court of Common Pleas of Allegheny County; et al. Case Nos.:
GD-18-09256,1742-WDA-2018, AND 275-WAL-2019, THE FINAL ORDER DATED 3/3/2020

PETITION FOR WRITOFMANDAMUS/ORIGINAL COMPLAINT
IN THE ALTERNATIVE # 1
(UPMC, WPIC, ALMA ILLERY MEDICAL CENTER, ET AL.)

P.O.Box 1-133
Pittsburgh, PA 15232
iacquibniai@gmail.com

RECEIVED
AUG - h 2020
©FFICE OF THE CLERK
SUPREME cqURT, U.S.

TABLE OF CONTENT:
STATEMENT OF THE CASE(S):

pp. 4-9

STATEMENT OF THE FACTS:

pp. 9-18

ISSUES PRESENTED:

pp. 18-19

RELIEF SOUGHT:

pp. 19-20

REASONS FOR WRIT:

.pp. 21-31

CONCLUSION:

.pp. 31-34

OPINIONS:

Appendixes A-F

A). Table of Contents
1). 2/3/2020:

PA Supreme Court Order/Judgment to deny appeal

2). 7/11/2019

Superior Court of Pennsylvania/Quashed the Appeal

3). 12/4/2018

Court of Common Pleas Judge Robert Colville

4).

Exparte Letter(s) to Judge Colville

8/30/2018

5). 12/22/2016 Final Federal Court Order/ case 13-cv-1212
6). 4/15/2016 Deposition Order (Federal Court)
7). 3/24/2016 Transcript of Federal Judge/13 -cv-1212 and GD-18009256 claims were separate and apart.
8). 2/2/2019

Jury Verdict case 13-cv-1212/GD-18-014236

9). 5/19/2019

Petitioner’s Oral Argument/Superior Court

2

G). Table of Authorities
H). Parties
I). Jurisdiction
J). Certificate of Compliance
K). Certificate of Service
L). Word Count Compliance
M). M.4(l)-M.4(4) The Perponderance of the Evidence (Undue
Influence/Fraud)
M.l More Orders, Opinions,Official Government Findings
M.2 Transcripts that Impeach Collateral Estoppel and Frivolousness
M.3 Email from Opposing Counsel Exparte Threats to Petitioner
M.4 Undue Influence of Opposing Counsel with Judges/Prothonotary
EXPARTE: Orders/Findings that Impeach Collateral Estoppel/Frivolousness
M.4(l) Undue Influence of Opp. Counsel-Judge Fischer (Federal)
M.4(2) Undue Influence of Opp. Counsel-Prothonotary (State)
M.4(3) Undue Influence of Opp. Counsel-Judge Colville (State)
M.4(4) Undue Influence of Opp. Counsel-Judge Walko (State)

3

STATEMENT OF THE CASE:
A. Trial Courts: Course of Proceedings [ See attached dockets for Federal and State Courts]
Plaintiff filed a complaint with the EPA against the Bentzes 7/24/2012.
The Bentzes refused to cooperate with EPA 2012-2016, until the court compelled
them to.
Case 13-cv-1212 was filed in Federal District Court for the Western District of
Pennsylvania.
The case was filed against Connie Bentz, CA Bentz LLC, and Gary Bentz, and
Connie Bentz, corporate landlords who leased an apartment to the Petitioner, using
the name CA Bentz LLC from 2006-2015, through now 2020.
Environmental Protection Agency became a nonparty expert participant throughout
most of the case, who sought to inspect the property and the Bentzes corporate
property records from 2012-2016, until they were ordered to comply.
The Bentzes got in default 1/22/2014-3/26/2014, for dilatoriousness in court as well,
even though being represented by Traveler’s Insurance Company attorneys, David
McMaster, et al.
During the case and while in Federal Court, the EPA found that the Defendants had
unclean hands/was in noncompliance of federal statutes, in 2016.
Defendant opposing counsel, along with UPMC et al outside of the case, violated
Petitioner’s HIPAA rights as to the abuse of her medical records.
Defendant opposing counsel filed confidential information onto the record that they
knew was fabricated outside of discovery and the court.

4

•

95-98% of their fraudulent acts were concealed during the 2013-2016 pending of the
13-CV-1212 case, throughout 2017 during the DHHS investigation 2016-2017.

•

On 3/24/2016, the federal Court determined that the actions of the opposing
counsel/Post and Schell and their outside actions through Thomas Hughes et al.
discovered during the Bentzes’ case discovery phase, were SEPARATE AND
APART FROM CASE 13-CV-1212. See 3/24/2016 Status Conference transcript, p.
44.

•

The federal court ruled in favor of both the Bentz Defendants and Plaintiff in PART.
Plaintiff could not afford an expert witness and an attorney so the in part for physical
injuries to her person from being exposed to lead and mold for 4 years were
dismissed. See Federal Judge’s Order 12/22/2016 pp. 14-21 in favor of the Petitioner.

•

The court did not dismiss any nuisance, warranty of habitability, nor breach of
contract, with constructive eviction as she had to move out of the apartment due to
hazardous conditions, etc.

•

The Court transferred the nuisance, warranty of habitability, breach of contract, to
state court after pending from 2013-12/22/2016.

•

Case 13-cv-1212 became GD-18-014236, and a trial with a jury (after 6 years of
stalling and fraud done by the Defendants/opposing counsel).

•

The jury verdict was in favor of Plaintiff. (See attached Writ #2 for that case)

•

DHHA [who was doing an INDEPENDENT INVESTIGATION], determined that
UPMC and Alma Illery et al., violated Plaintiffs HIPAA rights, 2016-2017.

5

•

That final determination was attached to the Certificate of Merits filed in this new
case, GD-18-09256, 1742-WDA-2019, and strict proof of fraudulent actions of the
new defendants that excluded the Bentzes, and CA Bentz LLC.
The Defendants are UPMC, Alma Illery Medical Center, Post and Schell PC, et al all
whom Plaintiff never sued before, never sued for these claims before, and both cases
proceeded separate and apart,
Post and Schell Respondents filed a 233.1 Motion to Dismiss on the false grounds
that case 13-cv-1212 and GD-18-09256 were estopped and that the cases were
frivolous.
A letter directed to Judge Colville, from Post and Schell requested a motion hearing
to dismiss on those grounds, and for the judge to get them a court reporter.
Judge Colville did exactly that, he got them a court reporter 2xs, and then dismissed
pursuant 233.1 without any proof, without any facts and against law and reason.
The Judge refused any motions, amended complaint, answers to preliminary
proceedings, evidence or facts from Plaintiff, and refused to consider the evidence of
continuing fraud.

B. Nature of the Case: [She incorporates 1-4 Jurisdiction; she incorporates her written oral
argument filed in the Superior Court]:
•

This case is a medical malpractice and legal malpractice case, where UPMC and
Alma Illery et al altered, fabricated and dispersed mental health and medical health
records to multiple nonparties to buttress Post and Schell PC’s legal defense, and got
caught. They denied Plaintiff any right to access her own medical records to cover up
the fraud, and in violation of the DHHS order to allow.

6

•

Case 13-cv-1212 was a personal injury case involving personal injury and loss of
monetary and other property due to mold and lead infestations on the Bentzes
property. The Bentzes refuse to disclose the hazards to tenants and EPA charged
them for non-disclosure. See Appendix C: Proof of Improprieties.

•

The issue of seeking equitable/declaratorv relief by those with unclean hands is at
the core of the case.

•

Since the Judge Colville, Superior Court, et al determined that the 2 separate cases
were the same, they OPENED THE DOOR for the Petitioner to include both cases
to show this Supreme Court specifically how they are different, and how neither are
frivolous.

•

She requests leave to combine cases GD-18-009256 and GD-18-014236, to show a
egregious and continued pattern of misconduct by the same opposing counsel and
court.

C. Disposition:
•

At no time did the federal district court state, nor intend that a 4/15/2016 discovery
order barred Petitioner from a medical malpractice negligence and invasion suit in
state court. The opposing counsel made that up. See docket entry of Judge’s
reasoning of that 4/15/2016.

•

Federal court held that medical malpractice issues were separate and apart from
nuisance, Toxic Substance Control Act, Residential Lead Based Paint Hazard and
reduction Act, etc., against the Bentzes.

•

The Petitioner won the first case in part, and claims survived 6 years until trial.

•

Petitioner won a jury verdict against the Bentzes, 2/2/2020.

7

•

Defendant/opposing counsel filed a 233.1 Motion on the grounds that (1) all of
Petitioner’s prior (1994-2017, and 2017-2019) were frivolous, and (2) Petitioner’s
medical malpractice claim is collateral estopped from any redress, including access to
her own medical files, HIP A A duties owed her by UPMC and Alma Illery, et al.

•

The Court granted the 233.1 Motion on those grounds.

•

Plaintiff appealed in 8/2019, allowance was allowed at first, and then suddenly
because of a motion to quash from Post and Schell, the appeal changed to quash the
appeal. See email threats and intimidation from Connolly ruling in email that it would
be granted.

• No opinion as to why from the Superior Court would quash a prima facie appeal, at
that time was given.
•

Oral Argument was ordered by the Court, for Petitioner to appear and argue for 15
mins.

•

Petitioner was only given 5 minutes and was verbally cut off by one of the judges,
who only negatively responded to Petitioner who was the only African America.
Female and pro se.

•

Judge Elliot, then demanded Petitioner leave, after he disallowed free speech/oral
argument of the Petitioner.

•

Petitioner filed her oral argument that she had already prepared, onto the docket.

•

Judges disallowed the already filed and processed appeal, and did not address any of
the issues mentioned in Petitioner’s briefs/amended complaint, cited no rational
standards of law, and was otherwise attacking her grammar and other insignificant
reasons, as a basis for depriving her of an appeal.

8

•

Plaintiff filed an allowance to appeal with PA Supreme Court in 8/2019.

•

On February 3, 2020, the PA Supreme Court refused the Plaintiffs right to appeal,
without any reasoning/opinion.

•

The US Supreme Court determined that due to the virus, Plaintiff has 150 days from
2/3/2020 to file a writ.

•

Petitioner is now filing a writ of mandamus to compel the Respondents to follow the
law, facts, and the evidence, and since they did not, for this Honorable High Court to
overturn the 233.1 Judgment(s), on the grounds that neither cases are estopped, nor
frivolous as they claim.

STATEMENT OF THE FACTS:
1. Plaintiff was not allowed in Judge Robert Colville’s Court room, nor the Prothonotary’s
Office without harassment and mistreatment, because the opposing counsel filed a late
233.1 Motion to dismiss based upon peijury, misrepresentation of and in direct
contravention to the facts, circumstances, federal final orders, the law, and without any
evidence whatsoever.
2. They did not want to prosecute the Respondents wrong doing.
3. Plaintiff was not allowed to file documents pursuant to any procedure without the Deputy
Prothonotary destroying, interfering with, intercepting, and altering her documents in favor
of opposing counsel who are also defendants (Nick and Kim)
4. Nick was promoted to the Supreme Court of PA Deputy Prothonotary and interfered with
the Plaintiff having leave to appeal, per curium.
5. Plaintiff was not allowed a right to appeal in Superior Court and the decision to affirmed is
not based upon law, facts, nor the evidence.

9

6. The Superior Court’s ruling was based upon grammar and other non-substantive reasons
that Plaintiff even corrected. Judicial activism is evident.
7. Plaintiff had no right to seek redress in the PA Supreme Court either, without even
knowing why. No reason was given. No justice was named.
8. Plaintiff was not given fair due process from the courts, and the EPA and DHHS due
process were precluded by the very ones who those agencies found against. They nullified
and benefited from the nullity on their own noncompliance.
9. There was no fair motion consideration, when she filed a motion and got a hearing with
Judge Colville, he refused to deal with any issues she brought up, and instead ONLY
considered the issues of a 233.1 against her, despite the fraud upon the court that took place
(unclean hands) of those seeking a 233.1.
10. See case GD-19-009256 (N’Jai vs UPMC) vs. Michael Ramon Ochoa vs. Pollock, WPIC,
etal. GD-13-011757.
11. Both are decisions regarding the issue of 233.1 Motions to Dismiss by opposing
counsel/defendants. Both cases were decided by the same Judge Robert J. Colville.
12. In the Ochoa’s (Male/non-African America) case, Judge Colville stated, “Upon
consideration of Defendants’ Joint Motion to Dismiss Frivolous Litigation Brought by
Pro Se Plaintiff Pursuant to Pa.R.C.P. 233.1, it is hereby ORDERED that the Motion
is denied. While the Court appreciates Defendants’ concern regarding the potential
futility of some or all of the forty-three counts asserted in Plaintiffs Complaint, the
issues set forth in the Defendants’ Motion are more properly addressed through
Preliminary Objections. Defendants have not sufficiently established that all of these

10

claims are so plainly repetitive of claims raised in prior litigation such that dismissal
is warranted under Pa.R.C.P. 233.1.”
13. See an Exparte Letter from opposing counsel directly to Judge Robert J. Colville, dated
8/30/2018, by Molly E. Meacham, Post and Schell PC.
14. See Plaintiff s Email to Molly E. Meacham, dated 8/28/2018, regarding her and the deputy
Prothonotary’s fraud upon the court, by barring a default judgment against Post and Schell
for failing to answer after the 10-day notice that ended on 8/24/2018 (ex. A of Opposing
counsel)
15. See Response to Molly’s exparte letter to Judge Colville, and proof of the Motion hearing
9/7/2018, was scheduled to hear fraud upon the court, destruction of court documents, that
she and the prothonotary did against N’Jai 8/27/2018 when she paid for and was filing a
default judgment for their failure to answer. She was blocked by Kim and Nick. Nick
called Post and Schell.
16. See docket sheets claiming appearances on 8/22/2018 as an excuse for failure to prosecute
until 8/28/2018. An appearance is not an answer. Since then, an additional appearance has
been made for Post and Shell on the same date.
17. However, see Molly’s email to Petitioner introducing herself/appearance on 8/28/2018 and
not 8/22/2018. At no time has Petitioner had contact with the now 2nd added attorney for
Andrew Connolly, Thomas Huges, and Post and Schell. Clear fraud occured.
18. See another letter directed to Judge Colville from Molly E. Meacham, requesting his
personal service, dated 11/9/2018.

11

19. See Certificate of Merit, DHHS against UPMC and Alma Illery, Primary Care Medical
Center, et al, attached DHHS 5/17/2017, for an investigation of HEPAA claims that took
place in case 13-cv-1212 separate from the case pending through 12/22/2016.
20. In the N’Jai’s case (African America), Judge Colville stated regarding the Defendants
Motion to Dismiss Frivolous Litigation Brought by Pro Se Plaintiff Pursuant to Pa.R.C.P.
233.1, “It appears to this court that this case is exactly the type of case that is meant to
be dismissed under Rule 233.1. Plaintiff is appearing pro se and has clearly had the
chance to litigate these claims in the prior action. Her claims in this case all arise out
of the Defendants’ alleged discovery abuses in the prior action, including that
Defendants fabricated her medical records, refused to allow access to her subpoenaed
medical records, and publicized confidential information. All these issues were
addressed by Judge Fischer on multiple occasions, including a Memorandum Opinion
and two orders denying reconsideration. While not all the Defendants were parties in
the underlying action, they ail were involved in the case or with the subpoena of
Plaintiff’s medical records, so they are all “related” parties under Rule 233.1.”
21. AND Now, this 4 day of December, 2018, upon consideration of Defendants’ Motion
to Dismiss Frivolous Pro Se Complaint, it is hereby ORDERED that the Motion is
Granted, and Plaintiff’s complaint is dismissed with prejudice as to all Defendants. It
is also ordered that Plaintiff must seek leave of court to file a pro se complaint against
any of these Defendants in the future.”
22. Preliminary Objections were cancelled and not allowed and there were 8 claims, and an
Amended Complaint.

12

23. All 12 Defendants and all claims were dismissed and she was sanctioned for estoppel and
frivolousness, when not 1 of her cases were frivolous or estopped.
24. Judge Nora Barry Fischer stated the discovery issues regarding the HIPAA violations were
germane to the case 13-cv-1212, and that they were separate and apart from the case
involving personal injury, against Gary Bentz, Connie Bentz, CA Bentz LLC, for lead and
mole exposure.
25. EPA found in favor of Plaintiff in regards to Residential Lead Base Paint, Hazard
Reduction Act and the Toxic Substance Control Act.
26. The Certificate of Merit had attached DHHS confirmation that HIPAA violations were
done, and it was decided in 2017. after the final determination of Bentz claims 12/22/2016.
The Bentz case went to trial separately on 1/29/2019-2/2/2019, while the medical
malpractice claims are against UPMC et al none of which were a defendant in the prior
case, that went to Superior Court and PA Supreme Court. [Separate and apart from the case
that Colville claimed was estopped].
27. She had no a right to file documents without them being deliberately destroyed, altered,
and otherwise invaded by the some of the clerks, and the deputy clerks/Prothonotary for
both civil and family courts.
28. She was constantly being coerced to over pay for jury trial, for an appeal, etc., harassed
each time she came to the prothonotary, including being videotaped for filing a default
judgment against Post and Schell for not timely filing an answer to the complaint, and
because she refused and reported their egregious acts and omissions, then she was blatantly
retaliated against and threatened, using the resources of the prothonotary and the courts.

13

29. She was refused forma pauperis status even for the same case that she had it and that it was
transferred from, and
30. even though she paid for a jury trial, she was NEVER allowed one in this new and prima
facie malpractice case, that is not frivolous, nor collateral estopped.
31. From the start, Post and Schell made exparte letters to the Judge Colville, for which he
honored in a partial way, in his tone, his pre contrived disposition and his and racist over
tones, that are one-sided on the face of the record, and despite the fact that Post and Schell
et. al., were not following procedure and law (were late filing).
32. The record shows that there was clearly no evenhanded consideration of rights vs the white
judge’s and clerks, as they were blatantly one-sided exparte input for opposing parties,
clerks and the judges.
33. Plaintiff had no equal protection of the law, EPA, DHHS, and PA State Department
statutes and regulations despite the Defendants being found guilty of violations, instead the
Courts precluded her from anything exculpatory against the Defendants, including the
destruction of filed proof on the docket that were removed and/or destroyed by the deputy
prothonotary’s Nick and Kim who is not even a civil deputy clerk but a family division
deputy clerk.
34. Kate Montgomery was served with documents that had attached appendixes, but when
opposing counsel filed a Reply Brief, she deliberately omitted documents attached by
Plaintiff, as did the Prothonotary Office removed it from the docket.
FACTS ABOUT THE COURT OF COMMON PLEAS FRAUD
35. In the past, the Prothonotary OFFICE DIRECTOR: took documents filed by Petitioner out
of one case, and put them into another case, then claimed that Petitioner never even
answered, and therefore staged a fake non-pros causing the Petitioner to lose $132,000
14

worth of WRIT OF EXECUTION in violation to the PA Public School Code of 1949,
Section 611. See case AR-00-004416 and AR-00-004556, 7/11/2000-10/30/2001.
36. One of the Default Judgments and Writ was against John Bacharach who is the Allegheny
County Sherriff s Department Solicitor and the PFT Union Petitioner was in, Union
Solicitor at the same time.
37. They made an error by leaving the opposing counsel, Bacharach et al Defendant as well,
answer to her response/answer that they claimed she failed to prosecute on, in the wrong
court file and Petitioner discovered it.
38. Because of her past experiences with this kind of fraud in the prothonotary, she is fully
aware of the pattern of unlawful behaviors they do, just as it continued in this case.
39. IN CASE 13-cv-1212, Petitioner went to the prothonotary’s office 3-4 times AND WAS
VERBALLY REFUSED BY MIKE TO LET her transfer the case as the Federal District
Court Ordered. 3 TIMES she was intimidated by the 2 civil and family court deputy clerks
(NICK AND KIM). The family division clerk (KIM) had nothing to do with this nuisance,
warranty of habitability, and breach of contract lead and mild case.
40. Petitioner had to call over their heads to McGreever multiple times to compel them to
allow her to transfer the federal case to the state court as ordered by both the
Commonwealth Court and the Federal District Court.
41. In retaliation because they had to allow her to file/transfer the case for a trial.
42. The Prothonotary(s), put parts of the certified record onto the docket. He even left off
information from the certified docket of the Commonwealth Court transfer and made her
come back and forth to get it onto the record.

15

43. The Prothonotary allowed late and defamatory 233.1 motions by the Post and Schell
Defendants, interfere with Petitioner filing default judgments against them, and then altered
the time of filing to reflect a timely filing.
44. At the same prejudicial time, anything that they could think of against the pro se African
American plaintiff, like some minute or false claim of violating the procedure they would
threaten to dismiss the case.
45. The Prothonotary, the opposing counsel deliberately cause unnecessary delays, costs, etc.,
in a case that took 6 years to come to trial from their stalling, coercion and intimidations.
46. The Prothonotary would take things filed by the Petitioner, off the docket, white out dates
and send back information unnecessarily, while trying to extort more money than what was
charged by the Court.
47. Because Petitioner called over their heads again, and they were compelled to allow her to
file documents, they took document out, destroyed documents, unredacted documents that
were redacted, used multiple types of fonts on document and changed the documents from
other than the way she filed them.
48. More specifically, I got an order from a higher court judge to transfer the case from
prothonotary to prothonotary on 6/28/2018.
49.1 went to pay the fee on 7/2/2018 and was again stalled by Mike. He claimed the
Commonwealth court never sent the documents and that it could take a month.
50. This is notwithstanding the fact that there are deadlines that could get the case dismissed
non pros. He was trying to interfere again.
51.1 sent the document to McGeever cert, mail on 7/10/2018.

16

52. As of 7/19/2018 1 month after the filing of the complaint and past the 20-day stats for an
answer.
53. On 7/16/20181 got a call from the attorney of Cheung and Connor; he needs an extension.
I immediately agreed.
54. Plaintiff saw the PO notification that tracked the package.
55. The Prothonotary’s Office whited out the date, of a filed document, sent it back to Plaintiff,
and then ordered her to pay 225.00 for a civil jury trial.
56. The jury trial only costs 125.00.
57. Plaintiff had to come back and forth to the Prothonotary’s Office multiple times because
she was being mistreated by Nick/Kim Deputy Prothonotaries, acting as attorneys in behalf
of Post and Schell PC, et al.
58. The Superior Court Clerk had N’Jai come back and forth mailing excessive number of
documents without reason, causing unnecessary costs. He wanted her to bring in and/or
mail 8-10 copies of hundreds of documents. Called Plaintiff, even though the letter said to
send in org+3 copies, he demanded 8.
59. The documents in the record from the Prothonotary’s Office [only with regards to
Petitioner], were incomplete, destroyed, altered, and not reflective of her filing activities,
and consisted mostly of the Respondents.
60. They even unredacted some of the documents, whited out signatures, etc.
61. The Opposing Counsel’s documents were filed the way that they filed them and left intact.
62. Each of the 12 Defendants, representatives filed preliminary injunctions, separate and apart.
63. Each deliberately, UPMC, Alma Illery, et al, filed totally irrelevant documents over and
over and over some for only several pages of POJ, just to flood the record and then kept

17

demanding Plaintiff did not send document that she did send and that were tracked to the
party.
64. Neither the Court of Common Pleas Judge Colville, Superior Court upon application to
correct the record, nor the Supreme Court addressed these issues of unclean hands, but
refused her a right to an appeal based upon grammar and some other ridiculous non­
substantive rhetoric that had nothing to do with the law.
The judges failed to administer justice as the law entails, under the color of

ISSUES PRESENTED:
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED:
Article III of the U.S. Constitution, 28 U.S.C. §1254, §1651, Sup. Ct. Rule 20.
1. Whether Petitioner’s 1st Amendment “petition the government for a redress of
grievances” was violated? (YES)
2. Whether the Respondents violated the Petitioner’s 14th Amendment, rights hv
depriving her of “of life, liberty, or property, without due process of law.”
3. Whether the Respondents holdings, actions, and omissions precluded Petitioner’s 14th
Amendment right, by depriving her of the courts “equal protection of the laws?” (YES)
4. Did the Respondents violate Section 1983.1985 and 1986. [and Bivens for the Federal
Court], by “acting under color of the PA Constitution, DHHS and MCARE Acts.
EPA/HUD Acts” and by precluding any findings that were exculpatory to opposing
parties/counsel? (YES)
5. Whether a federal, state, or local court [at the request of opposing counsel], have
iurisdiction/authoritv/standing to preclude/override formal penalties, and findings of
noncompliance by the EPA/HUD and DHHS/MCARE Act/HIPAA statutes, regulations,
and civil procedure, found by EPA and DHHS? (NO POWER GIVEN)
6. Whether the Petitioner has standing to file HIP A A related issues (e.g. negligence and
privacy claims), after the exhaustion of her administrative remedies in DHHS that ended
in 2017? In state court, and in 2018? (YES)
7. Whether DHHS and EPA. et al governmental experts’ findings are frivolous and
estopped, just because opposing counsel to the court they were? Whether the opposing
counsel submitted evidence in support of the preclusions to the rights of the Petitioner?
(N0)
. .
.
8. While acting in their professional capacities as judges, deputy clerks/prothonotaries for
the family and civil division of the Court of Common Pleas, PA Superior Court, and the
PA Supreme Courts, did the Prothonotaries/Clerks act under the color of law when
destroying filed legal documents that were exculpatory to Post and Schell PC, et al and to
fix cases?” (YES)
18

9. Whether the actions of the opposing counsel, named court clerks, judges in these cases, et
al constitute unclean hands and therefore preclude them any equitable 233.1 relief?
(YES)
10. Whether equitable 233.1 relief for unclean hands contradict MUDD decisions?
11. See Petitioner’s (Written) Oral Argument, for other essential questions.

RELIEF SOUGHT
Petitioner hopes for a writ of mandamus as follows:1
12. Permanently compel recusal of State Judges involved in these cases, who participated
in Exparte prejudice, case fixing, deprivation of and preclusions of Plaintiff s
Constitution and Civil rights, tampering with jurists, and other unjust acts against a pro se
Plaintiff because she participated in protected activity.
13. Compel EPA to restore and enforce the violations of the (Residential Rehabilitation
Lead Base Paint Hazard Reduction Act), and the (Toxic Substance Control Act) EPA
noncompliance findings- orders against the Bentzes, and enforce the monetary and
other penalties for willful noncompliance of the EPA Official findings, as it officially
determined on 3/26/2016, but was being precluded and nullified by the ones whom the
findings are against 2016-2020.
14. Investigate regarding the Bentzes fraudulent use of CA Bentz LLC Corporation), by
and through attorneys David McMaster, and Howard Murphy, and their Attorneys hired
by Liability Insurance Company Travelers-Post and Schell PC, who perjured that even
though that LLC was functioning 100%, and how EPA found CA Bentz LLC in noncompliance, it allegedly did not exist to get out of liability and noncompliance, when it
did exist and is in contempt of the EPA findings through false preclusions to suppress
that information.
15. Null and void the Orders, or Motions for preclusions of estoppel or alleged
frivolousness pursuant 233.1, and reverse the Motions and/or decisions that have no
standing, nor subject matter nor any jurisdiction, to preclude/negate EPA, DHHS
findings against the Bentzes and UPMC et al.
16. Overturn any unscientific expert’s ability to discredit the EPA and the Health
Department results of dangerous levels of lead and Mold that does exists on the
Bentzes property, despite the Bentzes/opposing counsel stating by professional
certainty otherwise.
17. Penalize and stop the CA Bentz LLC, Connie Bentz and Gary Bentz et al from
renting property that is infested with dangerous levels of lead and mold and not
disclosing it to tenant until it is too late.

1 See Petitioner's Oral Argument page 8 (Relief)

19

18. Overrule any decisions to nullify certified company findings of 3 dangerous levels of
mold on the premises, despite the Post and Schell PC attorney, et al filed motions that
say otherwise, just to get Traveler’s Insurance Company out of the liability insurance
claim and to assist in their clients shirking the EPA findings.
19. Enforce and/or compel compliance and restoration of the DHHS findings against
the IJPMC. Alma Illerv and/or Primary Care Medical Center. WPIC, et al„ that the
standard of care did not meet standards and were out of compliance, dated 5/2017, as
attached to the Certificate of Merit, for this Medical Malpractice Complaint.
20. Compel the Defendants to do what the DHHS compelled them to do. such as:
a. Allow Plaintiff a right to access her original medical records, since she was a
patient whom they have medical records from 1969-2017, as they allowed the
opposing counsel et al access to original records.
b. Allow Plaintiff access and a right to make copies and correct altered medical
records, both with UPMC and Alma Illery’s medical documentation on the Plaintiff.
c. Comply with HIPPA/MCARE regulations to cease and desist in NOT giving free
access of non-redacted medical and mental health information to Post and Schell
PC/Traveler’s Insurance attorney and/or firm-Post and Schell, Record Copy Service,
et al without any signed release from Plaintiff whatsoever.
21. Impose the restoration of the Medical Malpractice Complaint/Amended Complaint as
facts, the law, and the records show are neither estoppel nor frivolous, and the Court nor
Opposing Respondents have presented no proof of either.
22. Restore the original records filed in the prothonotarv’s office bv the Plaintiff in the
form in which she filed them; and an investigation of clerks et al destroying, altering,
concealing and interfering with docketed legal documents to use for opposing parties
defense and to fix/undermine cases.
23. Enforce the liability insurance claim (ordered to be filed by the Bentzes), for
Petitioner’s exposure of lead and mold; to fix the destroyed medical records, medical
monitoring costs for the exposure, pay the warranty of habitability insurance payments,
or losses of her property and money that were over $40,000.00-$50,000.00, with punitive
damages for the nuisance claim, since the opposing counsel and judge Walko interfered
with Plaintiffs right to recover them.
24. Issue a protective Order to compel defendants to follow the law, procedure and
PA/Federal Constitutions and Statutes and not practice judicial activism and/or
systematic racism, perjury and fraud upon the court, especially Post and Schell PC and its
associate attorneys.
25. Investigate judicial misconduct and code of conduct, misconduct, and ethical
charges against the judges and attorneys in this case(s).
20

REASONS FOR GRANTING THE WRIT:
ARGUMENT
Petitioner, Jacquelyn B. N’Jai files this Mandamus requesting that the US Supreme Court
compel the named court officials, named in this writ, to follow the law, and procedures set by
this and its own courts, as a matter of law, and US Constitution, which each have declined to do.
The Mandamus against the Respondents will aid the Court in the understanding of various
indifference to the code of conduct and blatant judicial misconduct in court proceedings.
against a pro se litigator. This Mandamus, the evidence, the law and facts prove to the
Court how various parties violated the procedure/rules and Respondents have not shown
any legitimate public interests that resulted from their malicious 233.1 Motion/iudgment.
either.
This Mandamus acts to deter the actions of court officials to mistreat parties in behalf of
another based upon fraud. It acts to regain some sense of trust between the judiciary and the
public, because that trust has been undermined by the actions of some counsel, judges and clerks
who abuse the government implementations of their jobs, as a weapon to retaliate and deprive
citizens of their right given to them. As, there is no legitimate government, nor public interest
reason for granting a 233.1 against Petitioner for exerting her rights.
The fact that the Bentzes, used their fraudulent CA Bentz LLC corporation, refused to follow
any EPA guidelines, negated any DHHS recommendations for HIPAA noncompliance, and put
Petitioner and a 6 year old child, lives in danger by leasing property that they are fully aware has
hazardous lead and mold, and that will harm the tenant in the long run, is a significant reason for
the need to Petition this higher court for its power to state/interpret the law, and correct the

21

wrongs. Currently the Bentzes are allowed to not disclose those facts, despite what the
EPA/HUD mandated. This alerts the Court of the truth about these cases.
Also, the fact that a Health Care provider, can violate the patient’s HIPAA rights and then
join in a conspiracy to defraud her and spoil/destroy her medical records, and then freely send
unauthorized confidential, unredacted, medical records to anyone involved in a lawsuit, and even
others who are not, are not only dangerous, but also it is unconscionably in contradiction to law.
They secretly waived Petitioner’s a right to copies, censored her testimony about what she
went through, and refused accessed to her own records, after the DHHS told them to allow
access and copies and cited them for not doing that.
Then when she sued the Defendants for their actions, the party got slandered, sanctioned,
denied constitutional and other rights, etc., denied a right to even file documents of proof,
without them being destroyed, removed, or not even considered, simply for her participation in
protected and guaranteed activities. The Respondents got equitable relief to protect and cover up
their unclean hands, by the Court’s 233.1 order.
The facts and evidence show that there are “highly exceptional circumstances that only the
discretionary powers of the US Supreme Court can remedy or redress”.
Only this US Supreme Court is higher than the PA Supreme Court. who refused the
Plaintiff a right to seek redress there from, even after she paid for an appeal. That Court also
never gave any standards of law, did not address any of the issues and evidence Plaintiff
presented, and just stated in the clerk’s order that the appeal was denied on 2/3/2020. Therefore,
the mandamus cannot be obtained from any other court.

22

She requests this Supreme Court to compel the Alleghany County Prothonotary’s Office
(Staff), Court of Common Pleas (Judges), Superior Court of PA, and the PA Supreme Court and
the CA Bent LLC Corporation of the Bentz Defendants, to do their public and/or EPA, DHHS,
Department of State, CA Health Department, et al., statutory duties, to implement the law as they
are intended and not from their outright contempt, nor based upon their racist and judicial
activism thereof.
The reasons for granting the request for this Mandamus, is because of the EXCEPTIONAL
CIRCUMSTANCES FOUND BY. the EPA. DHHS. and other Governmental Agencies2.
that the Defendants, et al have violated Petitioners’ HIPAA and MCARE Acts, Residential Lead
Based Paint Hazard Reduction Act, Toxic Substance Control Act, Warranty of Habitability Act,
Nuisance both public and private, etc., without any or minimum liability whatsoever, due to
fraudulent actions of the attorney’s, some clerks of court, and some judges acting under color of
both state and federal laws to nullify the governments’ findings.3
Another reason for granting the writ is because of the obvious UNCONSTITUTIONAL
RESTRAINTS, caused by Respondents’ fraud, that deprives Petitioner of her 1st Amendment
Right to petition the government for a redress of grievances; her 14th Amendment for a right to
life (not to be exposed to dangerous levels of mold and lead and have a right to recovery
regardless of her financial status to afford an attorney or expert witness even with proof), liberty
(to participate in protected activities like filing a legal document in a prothonotary of a state or
federal court without having them altered or destroyed to fix cases); her right to her property
[both monetary and physical property], that was destroyed by lead and mold, and because of lead
and mold caused by her corporate landlord’s neglect and concealment of the severe infestations
2 See Certificate of Merit and attached DHHS, EPA, etc. findings against opposing Respondents and rulings.
3 See Appellant's Oral Argument page 16-17.
23

of the property. Clearly, the records show that she has no right to equal protections of HIPAA,
EPA and other laws, as the EPA, DHHS, et al stated she has, prior to the Respondents committed
fraudulent actions and nullifying and precluding/ such constitutional and civil rights.
Next, there are many other reason for granting the writ that INVOLVE ESSENTIAL
QUESTIONS of (1) abuse of discretion, (2) outright mistreatment of a pro se litigator, (3)
Exparte and bias decision making, (4) contempt of court and government orders, (5)
contradictory decision making for the same issues in other cases than with the Petitioner’s cases,
(6) peijury, (7) defamation slander and libel, (8) obstruction of civil processes, (9) obstruction
of civil procedure, (10) Cannons and professional code of conduct abuses and violations, and (11)
the criminality of obstructing legal documents after they were filed in a government court of law
to fix cases.
Exculpatory evidence that was never considered, suppressed, destroyed off the docket,
whited out by clerks, and even precluded- because the evidence is against the Respondents and
would expose the under color actions and omissions that would compel them to do what the
Petitioner is requesting this Court to compel them to do, and to make them liable for their
unlawful acts.
Lastly, instead of sanctioning and making the Respondents liable for their malicious and
under color acts, the Courts, judges in this case, deputy Clerks and prothonotary’s condone and
participate in these acts, of unclean hands-but sanction and deprive Petitioner for grammar and
other irrelevant and unprovable accusations with prejudice.

24

United States Environmental Protection Agency, who has jurisdiction over the
leasing/commercial property of the Bentzes, determined that the Bentzes, CA Bentz LLC, et al.,
violated the Residential Lead-Based Paint Rehabilitation Hazard Reduction Act and the Toxic
Control Act in terms of “disclosure of lead,” uncertified renovations done by Bentzes that out
Petitioner further at risk, and for refusal to comply/cooperate, and other dilatoriness.4 EPA also
showed how there were false information given and fraudulent concealment of documentation
that were requested by EPA 2012-2016.
The opposing counsel requested that the Federal District Court conceal EPA documents, on
the grounds that they could be used at trial against the Respondent/Bentzes, but on 3/26/2016,
they were compelled to give copies to the Petitioner.
EPA gave Petitioner many documents via FOIA, against the Bentzes/Respondents ’ for
their non-compliance misconducts.
The District Court decided and told both Petitioner and Opposing Counsel that the issues the
Petitioner discovered outside of the 13-cv-1212, claims, were SEPARATE AND APART
therefrom.
The Federal Court’s final decision in case 13-cv-1212, not only indicated that Petitioner’s
claims were notfrivolous and that Petitioner was capable ofproving those claims at trial, but
also the Court reserved the Petitioner a right to file the survived PRIMA FACIE state claims
[nuisance, warranty of habitability(constructive eviction), and breach of contract], in state
court for trial. Petitioner won in part against the Bentzes, federally and at the state level-while
Post and Schell PC represented them.

4 See noncompliance letters/decisions/findings from EPA in favor of the Petitioner.
25

The final Federal decision dated 12/22/2016, [after the 4/15/2016 discovery order], moved the
case forward to closure and had no medical malpractice issues in it, as they were separate and
apart.5
On 10/17/2017, the opposing counsel filed another motion to reopen/reconsider the
12/22/2016 order, after the 3rd Circuit Court affirmed it, instead of filing a timely answer to the
medical malpractice complaint. That motion was denied.
Also, as determined in 2016-20176- by the DHHS, [in favor of the Petitioner], the
Respondents, UPMC. Alma Tilery Medical Center, et al„ deviated from acceptable
standards of care, as the Health Care Providers of the Petitioner.7 DHHS determined that the
Respondents deprived the Petitioner of a right to access her own medical records, to get copies,
and violated their Health Care Providers’ fiduciary duty/HIPAA requirements owed to her.
DHHS also refused to seal/hide the noncompliance records as requested by the Respondents.
After confirming and exhausting her administrative remedies with the DHHS 2016-2017, the
Petitioner mistakenly, filed the original medical malpractice (negligence and privacy issues), in
the Commonwealth Court of Pennsylvania.8
Commonwealth Court transferred the case to the correct jurisdiction.9
GD-18-009256, the Court of Common Pleas dismissed it pursuant an untimely
motion to dismiss 233.1 filed and by an Exparte letter to Judge Colville from Post
and Schell PC, on the following grounds:
5 See the Final Judgment of Judge Nora Barry Fischer, 12/22/2016 already on record. See discovery order that does
not indicate nor state that Plaintiff was barred from, nor with any prejudice, etc., dealing with those issues
separate and apart. Stated those issues were different from those of the Bentzes personal injury case.
6 Note 2017, is after the 4/15/2016 discovery order that the Opposing Counsel/Courts claim finalized the HIPAA
issues.
7 See the complete Certificate of Merit and attachments (i.e. DHHS findings), and served them with the Petitioner's
Complaint.
8 See the Commonwealth of Pennsylvania's order to transfer the case to the proper county/Court of Common
Pleas of Allegheny County, as a negligence claim.
9 See dockets for Commonwealth Court and for the GD-18-009256 new case.
26

1. Frivolous filings of ALL Petitioner’s cases (even non-related), and
2. Collateral Estoppel, that the claims were not separate and apart, but already
adjudicated by Judge Fischer in the 4/15/2016 non-final order.
3. Petitioner was labeled a “serial litigator” who files only frivolous complaints.
4. Petitioner was barred from filing any complaints against her health care providers and
other respondents, because according to them, she already sued them, when she filed
the Bentzes.
Petitioner argues that the implications of the Respondents’ argument falsely constitute that
even though they deviated from the standards of care, committed fraud upon Petitioner and the
Court, are in contempt of multiple orders, committed peijury, put her and other resident/tenants’
lives at risk including a 6 year old child, and invaded, altered, and published her unredacted
medical files on the record to buttress their legal position, despite all those PROVABLE and
despicable acts, equitable relief is due them in the form of a 233.1 fraudulent motion.
The Court not only ignored their unclean hands, but in retaliation, sanctioned the Petitioner
for the exertion of her constitutional and civil rights to seek redress in a court of law for what
they did to her.
In the furtherance of their mistreatment of the Petitioner/party, the Respondents held that
despite all of the above facts, that the Petitioner still allegedly filed a frivolous medical
malpractice suit, because she already filed a suit against them/12 defendants in federal district
court in 2016, and [despite the exhaustion pending in DHHS until 2017]. They flat out lied to
this court.
“All men are born equally free and independent, and have certain inherent and
indefeasible rights among which are those of enjoying and defending life and liberty, of
acquiring, possessing and protecting property and reputation and by pursuing their own
happiness,” [Art. I §1.], and they have NO authority to take that away.
All of the Respondents arguments are flawed, in that just because a few of the wrongful acts
[that happened outside the courtroom], were discovered in 2016, while others were
27

fraudulently concealed and continuous even after being ordered not to be concealed, that
constituted a fair adjudication of her HIPAA rights claims.
The Petitioner contends that their argument is irrational on the grounds that the timing, the
different claims, the different defendants, the courts, EPA, and DHHS statements and orders
cannot be collateral, nor frivolous, nor negated, and therefore the Respondents failed to
substantiate a legitimate public/govemment interest for being granted an injunction against a
party in retaliation for justifiably suing them.
Also, so after she immediately upon discovering 1-2 facts about their fraud, the Petitioner
reported it to the DHHS and that investigation lasted after the 13-cv-1212 case. Therefore, the
record shows that these two cases functioned legally, separately and apart from the other. So,
how can they be estopped?
She was even ordered by Judge Walko, at Post and Schell PC request, that Petitioner be
gagged and not allowed to mention anything about the other case GD-18-009256 (that opposing
counsel is a defendant in), because they were separate and apart. Their actions, omissions, and
holding are not based upon the law.10
Petitioner contends that the Court’s order(s) in support of the Respondents flawed and false
arguments, are contradictory/inconsistent with the facts and the truth, and the evidence on
record.11
According to the Respondents, the HIPAA medical and legal negligence claims were
allegedly adjudicated by a Federal District Courtjudge during discovery, in a 4/15/2016
discovery nonfinal order for another case.
10 See Motions in Limine granted to preclude the Petitioner from mentioning anything about the other case
because they were separate and apart, but the opposing counsel was allowed to misrepresent the facts about the
other case in front of the jury.
11 See the EPA, DHHS, Certificate of Merit, and all of the documents filed on the record(s), that proves she stated
Prima Facie claims and there is no collateral issue.

28

No discovery was allowed in this new case, and she was restricted to discovery only in the
previous 13-cv-1212/GD-18-014236 case, for this GD-18-009256 new case, and appeals,
notwithstanding the Respondents’ egregious acts were being fraudulently defiled/concealed from
her and the court, EPA and DHHS from 2014-2020 to this date.
No evidence, nor proof were needed by the opposing counsel, to get Judge Colville to grant
an equitable injunction against the Petitioner for no just cause. None of the facts, and a
multitude evidence, testimony of the Petitioner, were allowed by Judge Colville. No
consideration of the Federal order was allowed the Petitioner, but a 4/15/2016 discovery order of
the same Judge was allowed to be misconstrued, and the exclusion/preclusion of the Judge’s
final order in favor of the Petitioner, dated 12/22/2016, was not allowed either. All at the request
and abuse of civil procedure done and allowed by Post and Schell PC and the joined in
Respondents.
According to them, by and through Judge Colville, they have the authority and standing to
negate, misrepresent, and be in contempt of Federal District court rulings, EPA and DHHS
findings against them, and do not have to comply with anything found and ordered to be done by
any of those official orders, on the false grounds that the Petitioner allegedly had no right to file
any complaints against the Respondents, nor anyone prior to them as well, because all of her
cases were allegedly frivolous and because allegedly she loss all cases, all the time, and allegedly
including the case 13-cv-1212. Yet she won in part and had a trial that she won as well from
case 13-cv-1212/GD-18-014236.

29

They concluded, that the timely medical malpractice suit, despite the enormous amount of
evidence, and the supportive Certificate of Merit, are collaterally estopped and frivolous and
therefore wrongfully precluded the Petitioner’s constitutional and civil rights to pursue her prima
facie claims.
There was no right nor grounds to any appeal of the non-final 4/15/2016 ruling they claim
barred her from suit, nor final order for her to appeal, but a retaliatory 233.1 Motion based upon
these false allegations, got the Respondents a 233.1 injunction against the Petitioner. The 233.1
Judgment created unconstitutional conditions, that closed the court to her without censorship.
They claim that, as a result of their allegations (with no proof, and misrepresentation of the
facts, law and the truth), their defamatory and unreasonably vague words/testimony of opposing
counsel, are grounds for the Court/Judge Colville to sanction her right from seeking redress in a
court of law against any of the 8 Respondents, by censorship and to preclude her from
mentioning anything about the DHHS and EPA findings of their unclean hands, because they are
exculpatory against them.
“The printing press shall be free to every person who may undertake to examine the
proceedings of the Legislature or any branch of government and no law shall ever be made
to restrict the right thereof.”
Petitioner argues, and exerts her inherent Declaration of Rights, that:
“No power of suspending laws shall be exercised unless by the Legislature or by its
authority.” Art. §12
Clearly, Post and Schell, et al, nor Judge Colville et al., have jurisdiction nor authority to
negate federal law as determined in these cases, EPA, nor DHHS findings either.
“The Citizens have a right in a peaceful manner to assemble together for their common
good, and to apply to those invested with the powers of government for redress of
grievances or other proper purposes, by petition, address or remonstrance.” Art. §20

30

“Trial by jury [as requested by Petitioner], shall be as heretofore, and the right thereof
remain inviolate. The general Assembly may provide, by law, that a verdict may be
rendered by not less than 5-6ths of the jury in any civil case.”
Yet, not only did the same Respondents interfere with the above rights, they fraudulently
handpicked 6 employees to be on the jury, they forced Petitioner to have 12 vs. 6 jurists, for
which opposing counsel and the court gave ill instruction, verbal and other coaching of what to
do, and even how much to give the Petitioner. They interfered with her right to adequately
recover.

CONCLUSION
The court decided to preserve the guaranteed rights of a non black, but then denied
preservation of a black person for the same thing. The Court’s decision is SOLELY based upon
the Exparte request of Post and Schell PC, pro se rights, and race.
Judge Colville, the Superior Court’s affirmation, and the rejection to allow appeals by the
PA Supreme Court, are unconstitutional deprivations of Petitioner/N’Jai’s 1st and 14th'
constitutional rights..
The exparte letters by Post and Schell et al, directed directly to Judge Colville, and Judge
Colville’s actions and omissions constitute impartiality and/or the appearance of impartiality
and were prejudicial to the Plaintiffs right to recover.
The Courts’ ruling to grant a 233.1, without any consideration to the facts, evidence and law,
constitute an abridgment of Plaintiffs privileges regarding her as a patient for UPMC and
Alma Illery, and the HIPAA regulations regarding her medical records and her right to
access those records. The Petitioner has a right to life and not to be tricked into dangerous or
hazardous situations that put her and other tenants at risk of death, or bad health.

31

1

She should be able to exert the privileges given to her by EPA to give samples to expert
labs and rely on their professional results without irrational preclusions, obstructions, and other
interference from the accused. The privilege to file Residential and Rehabilitation Lead-Based
Paint Hazard Reduction Act, and Toxic Substance Control Act-EPA complaints when someone
puts her life in danger and hides the danger from her, was confirmed by the EPA.
Petitioner demands the liberty to go through and participate freely in legal procedures
without harassment, retaliation, or fraud and the right to not have her monetary and other
property destroyed nor taken, without fair due process of the law, nor censorship.
Clearly, the administering of justice from Judge Colville, Walko and McVay , were NOT
evenhanded, but were arbitrary and capricious, when it came to the UPMC, Post and Schell
PC vs a black Plaintiff who is pro se.
“When the court has come to a conclusion by the exercise of its discretion, the party
complaining of it on appeal has a heavy burden; it is not sufficient to persuade the appellate court
that it might have reached a different conclusion if, in the first place, charged with the duty
imposed on the court below; it is necessary to go further and show an abuse of the
discretionary power. "An abuse of discretion is not merely an error of judgment, but if in
reaching a conclusion the law is overridden or misapplied, or the judgment exercised is
manifestly unreasonable, or the result of partiality, prejudice, bias[,] or ill-will, as shown by
the evidence or the record, discretion is abused."12
The transcripts, evidence, Petitioner’s documents/court filings show there was no estoppel,
nor any frivolousness, because other courts suggest/stated in plain English that the Petitioner’s
claims were not frivolous. The Defendants/Respondents have not proved that any of the
Petitioner’s cases were frivolous nor estopped.
Opposing counsel and the Court have no jurisdiction nor standing to negate/preclude
DHHS, EPA, nor any other federal or state statutes and final findings, in order to buttress a legal
defense.

12 See Schwartz v. Speyer, Pa: Superior Court 2020
32

1

The court of common pleas and neither of the PA Courts, were open to Plaintiff, who was
unconscionably branded as having filed federal, and other so-called frivolous lawsuits against
people, when there is no federal, state etc. order, findings, nor rulings [from 1993-2019], that
state Plaintiff filed any frivolous lawsuit ever, except Colville’s who did so because opposing
counsel requested him to do so..
Plaintiffs original and amended complaints are not frivolous, and the Federal District
Court 12/22/2016, jury verdict of case 13-cv-1212, the HHS and EPA that back her up, are
not frivolous.
Plaintiff contends that the record shows that her winning 4 claims in part on the federal level,
and a jury verdict on the state level after the transfer to State Court, are impeachments of any
frivolous defense.
As a guaranteed right, under 42 U.S.C. § 1983, Petitioner should have been able to sue state or
local officials for the "deprivation of any rights, privileges, or immunities secured by the Constitutions
and [federal/state laws]," and all those who partook in the misconduct.

“Under Bivens v. Six Unknown Named Agents of Federal Bureau of Narcotics, 403 U.S.
388 (1971), she has a right to sue federal officials for the violation of certain constitutional
rights, so she brings suit against Federal officials (a Bivens claim).” She brings suit against
the State or local officials, under a § 1983 claim.
“Section 1983 allows claims alleging the “deprivation of any rights, privileges, or
immunities secured by the Constitution and [federal laws].” 42 U.S.C. § 1983.
Title 18, U.S.C. Section 241, states, “This statute makes it unlawful for two or more
persons to conspire to injure, oppress, threaten, or intimidate any person of any state,
territory or district in the free exercise or enjoyment of any right or privilege secured to
him/her by the Constitution or the laws of the United States, (or because of his/her having
33

1

exercised the same),” but the facts and evidence show the Respondents did otherwise, despite
the Petitioner has stated a prima facie claims and should have been be able to recover. See also
Title 18, U.S.C. Section 242.
The rulings of Judges in the Court of Common Pleas and the Superior Courts, contradict
the very essence of MUDD v. Nosker Lumber, Inc., 443, PA Sup.Ct., by allowing 12 separate
Respondents with unclean hands to receive equitable relief.
WHEREFORE, Petitioner requests that all of their rulings that were made under color of
law, be vacated, and/or reversed, and that each of their unclear hands/participation in the fraud be
addressed/investigated and sanctioned.

Respectfully Submitted,

'/7T
Jacquelyn B. N’Jai

34

